No.
IN THE SUPREME COURT OF THE UNITED STATES
___________________
CARLOS ESPINOZA,
Petitioner,
v.
W.L. MONTGOMERY, Acting Warden,
Respondent.
___________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS
Pursuant to 18 U.S.C. § 3006A(d)(7), 28 U.S.C. § 1915, and
this Court’s Rule 39.1, petitioner Carlos Espinoza asks leave to
file the accompanying Petition for Writ of Certiorari, without
prepayment of costs, and to proceed in forma pauperis.
This proceeding is a petition for a writ of certiorari to
review the judgment of the U.S. Court of Appeals for the Ninth
Circuit, affirming the denial of a habeas corpus petition, 28
U.S.C. § 2254.

The U.S. Court of Appeals for the Ninth Circuit found
Carlos Espinoza eligible for appointment of counsel under the
Criminal Justice Act, 18 U.S.C. § 3006A(a)(2)(B), on April 1, 2019
(order attached). Pursuant to that appointment, the undersigned
counsel represented Espinoza before the Ninth Circuit.
Because the circuit court granted informa pauperis status
and appointed counsel, no affidavit of indigency is required.
Supreme Court Rule 39.1. Carlos Espinoza respectfully asks this
Court to allow him to proceed in forma pauperis.
Dated: March 16, 2021

Respectfully submitted,
JONATHAN SOGLIN
Executive Director
/s/ J. Bradley O’Connell
J. BRADLEY O’CONNELL
Counsel of Record
Bar. No. 104755
Assistant Director
First District Appellate Project
475 14th Street, Suite 650
Oakland, CA 94612
Telephone: (415) 495-3119
Email: jboc@fdap.org
Attorneys for Petitioner

(1 of 24)
Case: 18-16835, 04/01/2019, ID: 11248021, DktEntry: 4-1, Page 1 of 2

UNITED STATES COURT OF APPEALS

FILED
APR 1 2019

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

CARLOS A. ESPINOZA,
Petitioner-Appellant,
v.
W. L. MONTGOMERY, Acting Warden,

No.

18-16835

D.C. No. 4:17-cv-02159-YGR
Northern District of California,
Oakland
ORDER

Respondent-Appellee.
Before:

SILVERMAN and CALLAHAN, Circuit Judges.

The request for a certificate of appealability is granted with respect to the
following issue: whether juror misconduct violated appellant’s rights to due
process and a fair and impartial jury. See 28 U.S.C. § 2253(c)(3); see also 9th Cir.
R. 22-1(e).
Counsel is appointed sua sponte for purposes of this appeal. See 18 U.S.C.
§ 3006A(a)(2)(B); Weygandt v. Look, 718 F.2d 952, 954 (9th Cir. 1983). Counsel
will be appointed by separate order.
If appellant does not wish to have appointed counsel, appellant shall file a
motion asking to proceed pro se within 14 days of the date of this order.
The Clerk shall electronically serve this order on the appointing authority for
the Northern District of California, who will locate appointed counsel. The
appointing authority shall send notification of the name, address, and telephone

(2 of 24)
Case: 18-16835, 04/01/2019, ID: 11248021, DktEntry: 4-1, Page 2 of 2

number of appointed counsel to the Clerk of this court at
counselappointments@ca9.uscourts.gov within 14 days of locating counsel.
The opening brief is due July 31, 2019; the answering brief is due August
30, 2019; the optional reply brief is due within 21 days after service of the
answering brief.
The Clerk shall serve on appellant a copy of the “After Opening a Case Counseled Cases” document.
If W. L. Montgomery, Acting Warden, is no longer the appropriate appellee
in this case, counsel for appellee shall notify this court by letter of the appropriate
substitute party within 21 days of the filing date of this order. See Fed. R. App. P.
43(c).

2

18-16835

